231 1 Douglas Street
Omaha, Nebraska 68 102-1 2 14

~'OCKLE

~Legal

Briefs
Est. 1923

1-800-225-6964
( 402) 342-283 I
Fax: (402) 342-4850

E-Mail Address:
contact@cocklelegalbriefs.com
Web Site
www.cockle legalbriefs.com

No. 2 1-57
LEVI FRASIER,
Petitioner.
V.

CHRISTOPHER L. EVANS, et al. ,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33. l(h), I certify that the BRIEF OF THE INSTITUTE
FOR JUSTICE AS AMICUS CURIAE IN SUPPORT OF PETITIONER in the above entitled case
complies w ith the typeface requirement of Supreme Court Rule 33. l (b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes , and this brief contains
2942 words, excluding the parts that are exempted by Supreme Court Rule 33. l (d), as needed.

Subscribed and sworn to before me th is 16th day of August, 2021 .
I am d uly authorized under the laws of the State of Nebraska to ad minister oaths.

NERAl NOTARY-State of Nebraska
RENEE J. QOSS
My Comm. Exp. September 5, 2023

Affiant

4 1172

